N. CERTIFICATE OF COMPLIANCE
I HEREBY CERTIFY that this Writ of Certiorari complies with Rule 33 and
34 of the United States Supreme Court, this petition uses Century Schoolbook 12point font, double spaced 2-point between the line, and has a word count of 6,742
which complies with the word count limitation of 9,000.

Respectfully Submitted,
Kevin Tyrell Beach
2092 Champions Way
North Lauderdale FL, 33068
*Email: beachkevinlQ@vahoo.com
Phone: 954-210-2008
/s/Kevin Tvrell Beach

23 | P a g e

i

